BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in 800 Services,
Inc. v. AT&T Corp., was sent via Two Day Service to
the U.S. Supreme Court, and via Two Day and e-mail
service to the following parties listed below, this 4th
day of January, 2021:
Richard H. Brown, III
Day Pitney
One Jefferson Road
Parsippany, NJ 07054
(973) 966-6300
rbrown@daypitney.com
Joseph R. Guerra
Sidley Austin
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8000
j guerra@sidley.com

Counsel for Respondent
Robert L. Sirianni, Jr.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(407) 388-1900
robertsirianni@brownstonelaw.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
. Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 4, 2021.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
february 14,2023

